<html>
<title> - FURTHERING THE MISSION OR HAVING FUN: LAX TRAVEL POLICIES COST DHS MILLIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  FURTHERING THE MISSION OR HAVING FUN: LAX TRAVEL POLICIES COST DHS 
                                MILLIONS

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 4, 2010

                               __________

                           Serial No. 111-52

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
58-151                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7611061936150305021e131a065815191b58">[email&#160;protected]</a>  


                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emmanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, U.S. Virgin Islands
Mary Jo Kilroy, Ohio
Eric J.J. Massa, New York
Dana Titus, Nevada
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight:
  Prepared Statement.............................................    21
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     2

                               Witnesses

Mr. Carlton I. Mann, Assistant Inspector General for Inspections, 
  Office of Inspector General, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Elaine C. Duke, Under Secretary for Management, Department of 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13

                             For the Record

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight:
  Statement of The National Business Travel Association (NBTA)...    15


  FURTHERING THE MISSION OR HAVING FUN: LAX TRAVEL POLICIES COST DHS 
                                MILLIONS

                              ----------                              


                       Thursday, February 4, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Christopher P. 
Carney [Chairman of the subcommittee] presiding.
    Present: Representatives Carney, Thompson, Pascrell, Green, 
and Bilirakis.
    Mr. Carney [presiding]. The Subcommittee on Management, 
Investigations, and Oversight will come to order. The 
subcommittee is meeting today to receive testimony on 
``Furthering the Mission or Having Fun: Lax Travel Policies 
Cost DHS Millions.''
    I would like to thank everyone for joining us today, 
certainly Ms. Duke and Mr. Mann.
    Today, we will examine the DHS Office of Inspector 
General's audit of the amount of taxpayers' dollars the 
Department of Homeland Security spent on conferences, retreats, 
and other off-site activities.
    In addition, we will examine the lack of internal controls, 
governing policies, oversight, and reporting of conference 
planning and spending practices which prevent the Department 
from being transparent and accountable to both Congress and, 
more importantly, the general public.
    During fiscal years 2005 to 2007, the Department reportedly 
spent $110 million on conference-related activities, 
approximately $60 million of which was in direct costs, an 
additional $50 million identified as salary expenses for 
employees attending the conference.
    I will be extremely interested in hearing today whether 
conference spending and attendance at these events were a 
prudent use of taxpayers' dollars, but I would also like to 
stress that I, as well as all Members of this subcommittee, 
understand the importance of Government travel, including the 
jobs that are supported by this travel.
    As a representative from Pennsylvania myself, I know how 
important travel and tourism are to our economy, but we need to 
ensure that the Department can accurately account for its 
travel spending.
    According to the inspector general report entitled ``DHS 
Conference Spending Practices and Oversight,'' DHS officials 
were unable to produce precise, consistent numbers on 
conference spending. Information relating to conference 
spending was not documented in a way that allows for easy 
examination.
    As a result, most responses received from the DHS 
components contained missing data and had discrepancies. Most 
alarmingly, the IG reports that DHS official said, ``There is 
no reason to track conference expenditures because there are no 
spending restrictions.''
    The IG also found that, ``Components are planning and 
sponsoring conferences without any consistent approval or 
tracking process. When combined with inconsistent conference 
cost and attendance numbers, DHS needs to develop better 
management controls to ensure that conferences are funded and 
attended for only mission-critical purposes and that costs are 
minimized to the greatest extent possible.''
    The Department needs clear and consistent conference 
planning and guidance. The Department must define terms such as 
conference, retreats, training, and outside activities in a 
uniform matter so that all of its organizational elements are 
on the same page.
    Limited Department-wide procedures do exist for determining 
or minimizing the number of employees attending conferences or 
for standards justifying attendance, but the only test that 
appears to be in place for determining the necessity of travel 
is whether funding is available. This must be fixed.
    According to the Secretary of Homeland Security, the 
Department has one mission: To secure the Nation from the many 
threats we face. Fulfilling this mission requires the 
Department to participate in many off-site activities 
throughout the country and, indeed, the world.
    Notwithstanding this fact, the Department must exercise 
oversight, accountability, and transparency regarding the 
amount of taxpayer money it spends on conference-related 
activities.
    I do want to thank the witnesses for their participation. I 
certainly look forward to their testimony.
    The Ranking Member is not here at the current time. He gave 
us the go-ahead to start. The Chair now recognizes the Chairman 
of the full committee, the gentleman from Mississippi, Mr. 
Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. It is nice 
to see the witnesses, Ms. Duke, Mr. Mann.
    As both of you know, we requested the inspector general to 
look at the practices of the Department of Homeland Security as 
it relates to conferences, retreats, and similar off-site 
activities.
    When the request was made, I was concerned about spending 
patterns that had been revealed at other Government agencies 
and wanted to see how the Department compared.
    Last month, the Office of Inspector General released the 
results of its audit in the form of a report entitled ``DHS 
Conference Spending Practices and Oversight.'' The report 
revealed an extremely troubling picture of not only the amount 
of money spent, but also a lack of internal controls, minimal 
oversight, and insufficient reporting throughout the entire 
Department.
    According to the report, from fiscal year 2005 through 
fiscal year 2007, the Department spent approximately $100 
million on conference-related activities. This money was spent 
on sending employees across the Nation and around the world in 
43,989 instances.
    For example, the Department spent almost $30,000 to send 
150 CBP employees to a conference in St. Simons, Georgia. CBP 
also spent over $470,000 on a 3-day event in Dallas, Texas, 
attended by over 300 CBP employees. Further, 320 TSA employees 
attended a conference in Texas at the cost of $643,000.
    These are just a sampling of the 8,359 conferences attended 
by Department employees during the relevant time frame.
    Let me be clear: By no means am I purporting that 
Department personnel should not attend conferences or outside 
training that are reasonable and support the homeland security 
mission.
    However, during the IG investigation, it was determined 
that, in the vast majority of these instances, the Department 
had not performed cost comparisons to ensure that it was 
getting the best price available, properly tracked its spending 
to make certain that it was on par with other budgetary needs, 
or required justification for expenditures so that it could be 
shown that legitimate purposes were fulfilled.
    None of these things happened, leaving both Congress and 
the public with the question: What did we get for our money?
    Moreover, the depth of mismanagement of taxpayers' dollars 
that was discovered by the IG was really troubling. According 
to the report, the data received from the Department was 
``unreliable, unverifiable, and contained little assurance that 
components properly tracked or accounted for all conferences 
and related costs.''
    When I made the request, I informed the IG that ``neither 
waste nor extravagance by the Department in performance of its 
critical role should be accepted or condoned.'' I meant that 
when I said it, and I continue to stand by the statement now.
    At the conclusion of its investigation, the IG made 12 
separate recommendations, including increased Department-wide 
oversight and the development of internal controls to increase 
accountability and transparency of Department conference 
activities.
    I fully intend to monitor the Department's progress on 
these important recommendations. I look forward to receiving 
the witnesses' testimony on this important matter.
    I yield back.
    Mr. Carney. Thank you, Mr. Chairman.
    Other Members of the subcommittee are reminded that, under 
committee rules, opening statements may be submitted for the 
record.
    I welcome both of our witnesses. Our first witness is Under 
Secretary for Management Elaine Duke. Ms. Duke currently serves 
as the Department of Homeland Security's under secretary for 
management, and in this role, she is responsible for the 
management and administration of the Department of Homeland 
Security, which includes management of the Department's $47 
billion budget, appropriations expenditures of funds, 
accounting, and finance.
    Ms. Duke also administers control over the Department's $17 
billion acquisitions and procurement process. She is also 
responsible for directing human capital resources and personnel 
programs for the Department's 223,000 employees.
    She administers control of the Department's enterprise 
architecture through strategic use of information technology 
and communication systems and is responsible for oversight of 
the Department's facilities, property, equipment, and other 
material resources.
    Prior to her appointment as the under secretary for 
management, Ms. Duke served as the deputy under secretary for 
management. She was the Department's chief procurement officer 
from January 2006 until her appointment as deputy under 
secretary for management in October 2007.
    Ms. Duke was the Department's deputy chief procurement 
officer from October 2004 to December 2005 when she championed 
the creation of the Acquisition Professional Career Program to 
rebuild the Federal acquisition workforce for the 21st century, 
something I personally applaud, by the way.
    Ms. Duke spent a great deal of her career with the U.S. 
Navy, where she held various acquisition positions of 
progressive responsibility. She began her career as a 
contracting officer for the U.S. Air Force. Ms. Duke holds a 
bachelor's of science degree in business management from New 
Hampshire College and a master's degree in business 
administration from Chaminade University in Honolulu, Hawaii.
    Our second witness is Mr. Carl Mann. Mr. Mann currently 
serves as the assistant inspector general for inspections in 
the Department of Homeland Security's Office of Inspector 
General. Mr. Mann has served in a variety of managerial and 
staff positions in the Federal Government, private industry, 
and the United States military.
    Appointed assistant inspector general for the Office of 
Inspections in November 2006, Mr. Mann is a charter member of 
the Department of Homeland Security. He served as the chief 
inspector in the Office of Inspections from the Department's 
inception in 2003 to his present appointment.
    Prior to coming to DHS, Mr. Mann was a senior program 
analyst with the Federal Emergency Management Agency's Office 
of Inspector General. He has also held staff and managerial 
positions with the Social Security Administration's Office of 
Strategic Management and Office of Civil Rights and Equal 
Opportunity, the Department of Health and Human Services Office 
of the Assistant Secretary for Personnel Administration, and 
has served as a technology consultant for General Services 
Administration, the Federal Aviation Administration, and the 
Department of Labor.
    Mr. Mann is a graduate of Virginia State University, where 
he earned a bachelor's of science degree in business 
administration. Without objection, the witnesses' full 
statements will be inserted into the record, and I now ask each 
witness to summarize your statement for 5 minutes, beginning 
with Mr. Mann.

 STATEMENT OF CARLTON I. MANN, ASSISTANT INSPECTOR GENERAL FOR 
    INSPECTIONS, OFFICE OF INSPECTOR GENERAL, DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Mann. Chairman Carney, Chairman Thompson, Members of 
the subcommittee, we thank you for this opportunity to be here 
this morning to discuss recommendations for improving the 
Department's conference spending practices and oversight.
    I would like to focus my remarks on five areas where 
improvements are needed: Clear and consistent conference 
planning guidance, reliable and verifiable data, sufficient 
supporting documentation, compliance with applicable travel 
regulations, and Departmental coordination of sponsored 
conferences.
    DHS conducts conferences for a variety of purposes, 
including employee and stakeholder training, information 
sharing, and mission support. We reviewed the Department's 
conference spending practices and evaluated its policies, 
oversight and reporting of conference-related expenditures. 
Specifically, we assessed the total spent by the Department on 
producing and facilitating conferences, retreats, and other 
off-site activities for 2005, 2006, and 2007.
    For each DHS component, we further analyzed the budgets, 
funds spent, number, location, and employee attendance at 
conferences. From that analysis, we selected five components: 
FEMA, Science and Technology, Immigration and Customs 
Enforcement, Coast Guard, and Departmental Operations in the 
Directorate of Management.
    We analyzed the conference spending practice for 11 
conferences associated with those five components to obtain a 
prospective on individual components' conference-related 
activities. The 11 conferences include the most expensive 
within and outside the United States. In addition, we examined 
a fiscal year 2009 conference in Hawaii attended by 19 S&T 
personnel.
    As you mentioned, from 2005 to 2007, the Department 
reportedly spent $110 million on conference-related activities. 
When compared to the annual enacted budgets of DHS, the amount 
spent on conferences was less than 1 percent of available funds 
each year. However, conference spending represents millions of 
dollars where management vulnerabilities can exist and areas 
where benefits and outcomes are generally neither evaluated nor 
measured.
    Prior to October 2008, there was no formal DHS-wide 
conference planning policies, and it was unclear who was 
responsible for developing and communicating those policies. 
Although the Department's current conference planning document 
is intended to represent a Department-wide policy, it still 
defers to components to continue following their existing 
guidance.
    It is unclear to what extent policies and guidance have 
been distributed or announced to DHS headquarters component or 
contractor personnel. As a result, significant challenges 
confront adherence to and monitoring of Departmental guidelines 
and Federal regulations.
    DHS does not have a Department-wide definition of what 
constitutes a conference. The distinction between conference, 
training, and a routine meeting can affect justification 
requirements for an event, how it is funded, as well as who can 
attend. Given the importance of conferences to help achieve and 
further the DHS mission, DHS should adopt and use one 
Department-wide definition. The same should apply to training 
and meetings.
    Having consistent terminology and guidance would reduce 
confusion, improve record-keeping, reporting, and oversight of 
Department-wide conference-related expenditures.
    DHS and its components maintain information related to 
conferences they sponsor in many different offices within each 
component. Conference planning data might reside in program 
offices. Documentation supporting procurement of facilities and 
other services might be maintained and contracted. Financial 
transaction data might be handled by accounting. Staff expenses 
could be tracked in human resources. Travel costs and related 
documents might be handled within travel systems.
    There is no central point within DHS or the five components 
responsible for maintaining all documents or reporting on all 
cost elements related to conference spending. Therefore, a 
central coordination point for policies, tracking and reporting 
of the conference expenditures should be established to 
minimize these differences. This will provide consistency of 
policy and guidance, standardize the definition of conference-
related activities, consolidate costs and report 
reconciliation, and enable the sharing of common data among 
components.
    DHS officials were unable to produce precise and consistent 
amounts on conference spending. Therefore, direct reporting 
from the program offices and manual review of documentation was 
necessary in each component.
    During 2005 to 2007, the chief financial officer issued 
data calls to components requesting information on all the 
conferences sponsored or attended. However, amounts reported by 
the components to the CFO for the 11 conferences we reviewed 
were different from the amounts we obtained directly from the 
components for the same conferences.
    Discrepancies also existed in attendance counts. We 
reviewed the CFO's data and the information we received 
directly from components with respect to the number of 
employees who attended the 11 conferences. Again, discrepancies 
existed in attendance totals, and we were unable to validate 
the accuracy of the information.
    Without using consistent methodology in maintaining 
attendance records and a final reconciliation of conference 
details, DHS cannot effectively provide oversight and monitor 
policy compliance.
    We observed that the DHS components were planning and 
sponsoring conferences without any consistent approval or 
tracking processes. When combined with inconsistent conference 
costs and attendance numbers, DHS needs to develop better 
management controls to ensure that conferences are funded and 
attended only for mission-critical purposes and that costs are 
minimized to the greatest extent possible.
    In assessing tracking and monitoring of conferences, DHS 
must use tools, methods, and systems to ensure accountability 
and minimize costs across the Department. DHS had no efficient 
means of locating documents or information systems that could 
easily be queried to obtain detailed financial or supporting 
information about conferences.
    [The statement of Mr. Mann follows:]

                 Prepared Statement of Carlton I. Mann
                            February 4, 2010

    Mr. Chairman, Ranking Member and Members of the Committee:
    Thank you for the opportunity to be here today to discuss 
recommendations for improving the Department of Homeland Security's 
(DHS) conference spending practices and oversight. I would like to 
focus my remarks on five areas where improvements are needed:
    1. Clear and consistent conference planning guidance;
    2. Reliable and verifiable conference data;
    3. Sufficient supporting documentation for conference costs;
    4. Compliance with applicable federal travel regulations; and,
    5. Departmental coordination of sponsored conferences.
    At your request, Chairman Thompson, we reviewed the Department's 
conference spending practices and evaluated its policies, oversight, 
and reporting of conference planning and related expenditures. 
Specifically, we assessed the total amount spent by the Department on 
producing or facilitating conferences, retreats, and other off-site 
activities for fiscal years 2005, 2006, and 2007. For each DHS 
component, we further analyzed budgets, funds spent on conferences, the 
number and locations of conferences, full-time equivalent staff 
allotments, and employee attendance at conferences. From this analysis 
and comparison, we selected five components and examined 11 conferences 
in more detail. In addition, we obtained a full listing of each 
conference that received funding or staffing support from the 
Department during fiscal year 2007.
    During fiscal years 2005-2007, the Department reportedly spent 
approximately $110 million on conference-related activities--spending 
approximately $60 million in direct costs and an additional $50 million 
identified as salary expenses for employees attending the conferences. 
When compared to the annual enacted budgets of DHS, the amount spent on 
conferences represents less than 1 percent of available funds each 
year. However, these small ratios represent millions of dollars where 
management vulnerabilities can exist and an area where benefits and 
outcomes are generally neither evaluated nor measured. They also 
demonstrate a financial and programmatic area where DHS must exercise 
due diligence to ensure that funding conference-related activities is 
an appropriate means for accomplishing Department-wide objectives.
    DHS conducts conferences for a variety of purposes, including 
employee and stakeholder training, information sharing, and mission 
support. The Department has made progress in developing Department-wide 
conference planning policies. However, work is still needed to provide 
clear, consistent, and adequate guidance and instructions. For example, 
conference cost data did not contain sufficient supporting 
documentation, and were unreliable, unverifiable, and provided little 
assurance that all conferences and related costs were tracked and 
accounted for properly. In addition, the Department needs coordination 
across its components to ensure that duplication of efforts related to 
sponsoring conferences is minimized.
    When reviewing previous DHS Congressional submissions and data, we 
determined there were discrepancies in conference costs and attendance 
counts. Although unintentional, this provides an inaccurate account of 
actual total costs incurred, the size of the event, and expenses per 
attendee, and does not provide for transparency or accountability in 
conference activities throughout the Department.

                DHS COMPONENTS AND CONFERENCES REVIEWED

    Although we did not review all DHS components, we identified areas 
in which the Department can leverage best practices that will allow it 
to generate new efficiencies, institute a coordinated program to 
improve efficiency and streamline decision-making, and ensure that 
conferences and travel are appropriately coordinated and conducted 
solely for mission-critical purposes.
    We analyzed conference spending practices in five DHS components to 
obtain a perspective on individual components' conference-related 
activities. The five components included:
  <bullet> The Federal Emergency Management Agency (FEMA);
  <bullet> The Directorate for Science and Technology (S&T);
  <bullet> U.S. Immigration and Customs Enforcement (ICE);
  <bullet> The United States Coast Guard (USCG); and,
  <bullet> Departmental Operations in the Directorate for Management 
        (DEP OPS).\1\
---------------------------------------------------------------------------
    \1\ Departmental Operations consists of the Office of the Secretary 
& Executive Management, Office of the Under Secretary for Management, 
OCFO, and Office of the Chief Information Officer.
---------------------------------------------------------------------------
    From these five components, we examined 11 conferences, which 
included the most expensive within the continental United States (in-
CONUS) and the most expensive non-CONUS conference for each of the five 
components held during fiscal years 2005-2007. In addition, we examined 
one fiscal year 2009 conference in Hawaii, attended by 19 S&T 
personnel.

                                   DHS CONFERENCES EXAMINED IN FURTHER DETAIL
----------------------------------------------------------------------------------------------------------------
                                     Fiscal
             Component                Year       Conference Name      Conference  Location      In/Non-CONUS
----------------------------------------------------------------------------------------------------------------
FEMA                                   2006  National Disaster       Reno, NV.............  In-CONUS
                                              Medical System (NDMS)
                                              Conference.
                                       2007  Regional Interagency    Honolulu, HI.........  Non-CONUS
                                              Steering Committee
                                              (RISC) Meeting.
ICE                                    2006  Detention Management    Batavia, NY..........  In-CONUS
                                              Control Program
                                              Training.
                                       2007  Regional (Asia)         Orchard District,      Non-CONUS
                                              Attache Conference.     Singapore.
USCG                                   2006  West Coast Aids to      Everett, WA..........  In-CONUS
                                              Navigation (AToN)
                                              Conference.
                                       2006  District 17 Commanding  Juneau, AK...........  Non-CONUS
                                              Officers' Conference.
S&T                                    2005  2005 National BioWatch  Washington, DC.......  In-CONUS
                                              Conference.
                                       2007  International           London, England......  Non-CONUS
                                              Underwater Tunnel
                                              Protection.
                                       2009  2008 Asia Pacific       Honolulu, HI.........  Non-CONUS
                                              Homeland Security
                                              Summit and Exposition.
DEP OPS                                2007  FY2007 Chief            Washington, DC.......  In-CONUS
                                              Administrative
                                              Officer's (CAO) Forum.
                                       2007  29th International      Montreal, Canada.....  Non-CONUS
                                              Data Protection and
                                              Privacy
                                              Commissioner's
                                              Conference.
----------------------------------------------------------------------------------------------------------------

   DEPARTMENT NEEDS CLEAR AND CONSISTENT CONFERENCE PLANNING GUIDANCE

    Prior to October 2008, DHS had no formal Department-wide conference 
planning policies, and it was unclear who was responsible for 
developing and communicating DHS-wide policies. Although DHS' 
conference planning document is intended to represent Department-wide 
policy and reflects a progressive effort, it still defers to components 
with stricter directives to continue following their existing guidance. 
Within various Departmental documents, multiple entities were cited as 
having responsibilities associated with conference planning. This 
conflicting information often caused staff to rely on inappropriate 
policies and irrelevant points of contact.
    It is unclear to what extent these policies and guidance have been 
distributed or announced to DHS headquarters, component, and contractor 
personnel. Little knowledge or alignment of practices with policies 
establishing guidelines for conference planning or spending at the 
Department level or identification of responsible policy-makers exists. 
As a result, significant challenges confront adherence to and 
monitoring of Departmental guidelines and Federal regulations.
    DHS does not have a Department-wide definition of what constitutes 
a conference. The distinction between a conference, training, and a 
routine meeting can affect the justification requirements of an event, 
how it is funded, as well as who can attend. Given the importance of 
conferences to help achieve and further the DHS mission, DHS should 
adopt and use one Department-wide definition. The same should apply to 
differentiating training and meetings. Having consistent terminology 
and guidance would reduce confusion; provide better use of staff 
resources; improve record keeping, reporting, and monitoring; and 
facilitate the oversight of Department-wide, conference-related 
expenditures.

            CONFERENCE DATA WERE UNRELIABLE AND UNVERIFIABLE

    DHS operates in a decentralized financial management environment, 
which creates difficulties in accurately tracking Departmental funds 
spent on conferences and related travel. Information related to 
conferences sponsored by DHS and its components is maintained in many 
different offices within each component. In addition, conference 
planning and attendance often include planning, procurement, and travel 
of employees. Therefore, while conference planning data may reside in 
program or budget offices; documentation supporting procuring 
facilities and other services may be maintained in contracting offices; 
financial transaction data may be handled by accounting; staff expenses 
may be tracked in human resources; and travel costs and related 
documents are handled within component travel systems.
    DHS officials were unable to produce precise and consistent numbers 
on conference spending. For example, related conference expenses in the 
financial management systems throughout the Department are not 
differentiated from other costs incurred. Therefore, direct reporting 
from the program offices and manual review of documentation were 
necessary in each component. Often, information was not maintained in a 
manner to facilitate proper examination, tracking of actual conference 
costs, or identification of a sponsoring entity.
    As a result, most responses we received from DHS components 
contained missing data and had discrepancies. For fiscal year 2007 
conferences, sponsorship information was often incomplete or 
inaccurate. In essence, the data received for fiscal years 2005-2007 
were unreliable, unverifiable, and contained little assurance that 
components properly tracked or accounted for all conferences and 
related costs.
    In addition, conference planners frequently did not take into 
consideration all of the information required to estimate potential 
costs or account for actual costs. In particular, the costs incurred 
during the planning and preparation stages and other staff-related 
costs such as salaries, travel, and incidentals were overestimated in 
some cases and underestimated in others.
    Similar differences existed when reviewing the 11 conferences in 
detail. During fiscal years 2005-2007, DHS' Office of Chief Financial 
Officer issued data calls to components requesting information on all 
conferences sponsored or attended. However, the amounts reported by 
components to the Chief Financial Officer for the 11 conferences were 
different from the amounts we obtained directly from the components for 
the same conferences.
    Discrepancies also exist in attendance counts. We reviewed data 
from DHS' Office of Chief Financial Officer and information directly 
from components with respect to the number of employees who attended 
the 11 conferences. Again, discrepancies existed in attendance totals 
and we were unable to validate the accuracy of the information. Because 
of an inconsistent Departmental definition, numbers could include only 
the sponsoring program office's employees, component employees, or all 
DHS employees who attended. Without using consistent methodology in 
maintaining attendance records and a final reconciliation of conference 
details, DHS cannot effectively provide oversight and monitor policy 
compliance.
    Currently, DHS components are planning and sponsoring conferences 
without any consistent approval or tracking processes. When combined 
with inconsistent conference costs and attendance numbers, DHS needs to 
develop better management controls to ensure that conferences are 
funded and attended only for mission-critical purposes and that costs 
are minimized to the greatest extent possible. In assessing, tracking, 
and monitoring conferences, DHS must use innovative tools, methods, and 
systems to ensure accountability and cost minimization across the 
Department. By promoting cooperation among its components and analysis 
of lessons learned internally and by other Federal entities, the 
Department has the opportunity to develop a systematic, disciplined 
approach to managing conference-related costs.
    Comprehensive cost and planning information should be collected to 
allow managers to make informed decisions regarding the reasonableness 
or necessity of proposed DHS conference expenditures. A singular, 
defined practice of capturing and reporting all conferences costs 
incurred is needed to ensure that data are reliable and verifiable. In 
addition, quality control procedures should be created to prevent 
discrepancies and variances in reported conference totals.

    CONFERENCE COSTS DO NOT HAVE SUFFICIENT SUPPORTING DOCUMENTATION

    Most documentation developed to support conference planning 
activities is financial. Whether it is procurement for such items as 
securing a facility, arranging for exhibition materials, ordering food 
and beverage service, printing programs; or incurring expenses such as 
travel arrangements, lodging, shipping of materials to the site, and 
mailing of invitations or flyers; there is a fiscal effect on program, 
office, component, and Department budgets. There can also be an effect 
on the Department's ability to demonstrate that particular performance 
measures have been met, through conference activities, when no records 
of the achievement exist.
    DHS had no efficient means of locating applicable documents or 
information systems that could be easily queried to obtain detailed 
financial or other supporting information about conferences. As a 
result, components were slow to respond and did not uniformly document 
or categorize expenditures. We also reviewed reported costs, cost 
comparisons for locations, and the use of external event planners for 
the 11 conferences. This information revealed that site comparisons 
were frequently not performed or documented, and cost-benefit factors 
often were not considered when choosing external event planners over 
internal staff to carry out conference planning and organizing.
    We requested basic information on each of the 11 conferences such 
as the date, location, number of attendees, sponsorship, and whether 
the conference was held annually. Although DHS components were able to 
provide this information, and the descriptions of each conference 
appeared related to programmatic goals, responses were not timely and 
descriptions varied.
    In addition, there was no central point within DHS or the five 
components we reviewed responsible for maintaining all documents or 
reporting on all cost elements of conference spending. As a result, 
components were slow to respond to our information requests, provided 
incomplete information, and had trouble identifying the appropriate 
individuals or offices within the component that would have knowledge 
of the requested information.
    Costs were reported inconsistently as estimates, projections, 
awarded, budgeted, or actual expenses. Supporting documents and 
invoices frequently did not equate with the total reported costs spent 
on the conference. For instance, S&T reported that for the BioWatch 
conference, they spent approximately $190,000 on conference costs, 
excluding travel and salary expenses. However, a task order was issued 
for $426,637. We requested the related invoices from S&T, and they 
provided a set of cumulative invoices from one contractor, which 
included one invoice related to the conference indicating that it was 
the final invoice for the conference totaling $288,888 cumulative to 
date. We have no information to confirm whether the remaining funds 
were spent and what they were spent on.
    Further, it appears that components have underestimated and 
underreported conference costs. For example, invoices retrieved from 
the National Disaster Medical System (NDMS) contractor and 
subcontractor were significantly more than what FEMA reported to us, a 
difference of approximately $580,000. Another underestimate of costs 
appears in the S&T Asia Pacific Homeland Security Summit and 
Exposition, where the component estimated $62,500 in conference 
expenses, excluding travel and salary, and we received copies of 
invoices for approximately $85,000.
    As I previously mentioned, cost comparisons were often not 
conducted. Conference planners are required to conduct site comparisons 
and are to consider both lower cost conference locations and venues at 
various locations.\2\ For conferences with greater than 30 attendees, 
Federal agencies must consider at least three conference sites and must 
maintain a cost record of each alternative conference site.\3\ With 
respect to comparing costs for specific venues, a planner considers 
such items as the availability of lodging rooms at per diem rates, 
transportation fees, the convenience of location, availability of 
meeting space, and equipment and supplies.\4\
---------------------------------------------------------------------------
    \2\ 41 CFR  301-74.3: What must we do to determine which 
conference expenditures result in the greatest advantage to the 
Government?
    \3\ 41 CFR  301-74.19: What records must we maintain to document 
the selection of a conference site?
    \4\ 41 CFR  301-74.4: What should cost comparisons include?
---------------------------------------------------------------------------
    We determined that two components did not provide adequate 
supporting documentation related to conducting cost comparisons. For 
example, FEMA sponsored a conference for its Region IX Regional 
Interagency Steering Committee (RISC) meeting, which was held at the 
Waikiki Beach Marriott Hotel.\5\ FEMA reported agency attendance at 32 
and the total conference attendance, including local attendees, was 
195. Federal agencies are required to consider at least three 
conference sites and keep records of these cost comparisons when 
planning a conference for over 30 attendees.
---------------------------------------------------------------------------
    \5\ RISC meetings rotate from State to State in Region IX, and this 
meeting was held in Hawaii as its normal place in the rotation.
---------------------------------------------------------------------------
    Even though information provided for the other conferences 
demonstrated that cost comparisons were done for the locations, efforts 
can be made to minimize expenditures for the rental of private 
facilities when Government facilities are available. Of the conferences 
we reviewed, five incurred facility costs, totaling $227,039.
    In addition, consideration must be given to other cost categories 
to ensure a well-rounded evaluation of all costs when choosing a 
location. For example, to eliminate unnecessary expense, ICE used its 
own facilities, incurring no costs, when sponsoring the conference on 
Detention Management Control Training. In another case, the USCG used a 
naval station for the West Coast AToN conference at a cost of $200 with 
staff lodged on USCG ships, minimizing hotel costs.
    Adequate and proper documentation provides evidence of DHS 
activities and ensures a decision-making trail. In addition, a 
comprehensive record-keeping system supports the functions required to 
track financial and administrative transactions, and provides detailed 
information significant to the management of operations. These efforts 
will reduce inconsistencies in reported costs, minimize costs related 
to the rental of non-Government facilities, and identify cost savings 
related to conference planners.

     DHS TRAVEL EXPENDITURES WERE NOT SUPPORTED CONSISTENTLY OR IN 
                 COMPLIANCE WITH APPLICABLE REGULATIONS

    Based on the number of attendees reported to us by five DHS 
components, we requested 25 percent of the travel vouchers for 
examination in detail. Of the 72 vouchers we requested, DHS components 
were able to provide only 47, or 65 percent. As such, we were unable to 
determine or verify the costs of conference-related travel and travel 
reimbursements accurately because of deficiencies in supporting 
documentation.
    Although meals had been provided to the attendees during several of 
the conferences, we determined that some DHS employees had not deducted 
the corresponding meal per diem amounts from their official travel 
vouchers, as required by Federal travel regulations. For example, six 
employees neglected to deduct the lunch portion of their meals and 
incidental expenses for the FEMA NDMS conference totaling $78. In 
another instance, one S&T employee who attended the Asia Pacific 
Homeland Security Summit and Expo, did not reduce the per diem to 
reflect any of the meals provided, amounting to an overpayment of $102.
    We also reviewed a number of other travel records that were 
completed incorrectly and omitted relevant information. Some did not 
provide adequate explanation or justifications on the travel 
documentation to readily determine the appropriateness of the costs. 
For example, it appeared that FEMA reimbursed one employee $176 for a 
canceled airline ticket, a second employee $466 for duplicate lodging 
costs, and a third for $145 for an extra day of lodging and per diem. 
In another example, DEP OPS provided reimbursement of a $454 conference 
fee to attend an evening gala for an employee at the Privacy 
Conference. The cost was separate from the cost of the conference 
itself and typically would not be reimbursable. Again, without proper 
justifications noted on the supporting documentation, we cannot 
determine whether these reimbursed costs were appropriate.

  DEPARTMENTAL COORDINATION OF SPONSORED CONFERENCES WOULD FACILITATE 
                              EFFICIENCIES

    One of the fundamental management goals for DHS leadership is to 
unify the diverse aspects of each component. This includes the 
standardization of managerial practices and systems to allow 
interconnectivity and cross-communication. This standardization is 
essential to join interrelated functions and eliminate duplicate 
activities and costs. However, there is a need to coordinate across DHS 
components to minimize duplication in facilitating conferences.
    The Department should undertake a review of annual conferences to 
determine whether other cost-saving means for communicating information 
would be more appropriate. For example, the USCG District 17 Commanding 
Officers' Conference is held annually after USCG staff is rotated 
throughout the district offices. For the fiscal year 2009 conference, 
the Commanding Officer conducted a needs assessment, determined that 
there had been no change in leadership since the last annual Commanding 
Officers' Conference, and canceled the one scheduled. Rather than 
holding the annual conference solely because it is sponsored every 
year, USCG leadership exercised fiscal prudence and decided to use 
other means to communicate with the staff, potentially saving more than 
$113,000.\6\
---------------------------------------------------------------------------
    \6\ The fiscal year 2006 Commanding Officers' Conference cost 
$113,401.
---------------------------------------------------------------------------
    A coordinated approach to planning conferences is critical to align 
Departmental efforts and resources adequately. In some cases, 
components are disconnected from each other, with little or no 
interaction, which creates different resource prioritization and 
potential duplication of efforts across the Department. Without 
knowledge of on-going component conference activities, headquarters 
elements do not have the information they need to ensure that DHS' 
overall strategic goals are being achieved in the most efficient manner 
possible.
    In summary, Department-wide conference planning policies can result 
in significant benefits such as establishing joint strategies; reducing 
the effect of conflicting strategies; addressing needs through 
leveraging combined resources; defining component roles and 
responsibilities to reduce duplication; and defining and implementing 
compatible regulations, policies, and procedures.
    The Department's conference planning policies need to provide 
clear, consistent, and adequate guidance and instructions. Conference 
planning should be defined and monitored at the Departmental level to 
ensure consistency across components and the incorporation of due 
diligence and standards into conference planning and administration. 
DHS needs to be able to demonstrate its results in sponsoring and 
hosting conferences.
    Current Departmental guidance provides for widely varying policies 
and procedures among the components, which perpetuates confusion and 
inconsistency in policy interpretations. A central coordination point 
for policies, monitoring, and reporting of conference expenditures 
should be established to minimize these differences. This will provide 
consistency of policy and guidance application, term definition, cost 
consolidation and report reconciliation; sharing of common data among 
components; and program performance and contribution alignment to 
Departmental strategic goals and objectives.
    Mr. Chairman, that concludes my prepared statement. I would be 
happy to answer any questions you or the Members may have.

    Mr. Carney. Thank you, Mr. Mann.
    Ms. Duke.

 STATEMENT OF ELAINE C. DUKE, UNDER SECRETARY FOR MANAGEMENT, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Chairman Carney, Chairman Thompson, Members of 
the committee, thank you for having me here this morning. The 
Department encourages and supports employee participation in 
Federal and non-Federal meetings and conferences. Such events 
are an excellent means to exchange and communicate ideas and 
knowledge.
    However, there is also a need to ensure that attendance at 
meetings and conferences is mission-critical, as prescribed in 
management directives and DHS policies.
    We appreciate the inspector general's recommendations in 
the ``DHS Conference Spending Practices and Oversight'' report 
and concur with the majority of the findings.
    However, when reviewing the data, it must be noted that the 
report is based on the Department facilitating conferences and 
off-site activities for fiscal years 2005 through 2007. These 
findings validate the pathway we are on to ensure that DHS 
conferences and travel policies reflect the best practices and 
are uniformly instituted throughout the Department.
    In October 2008, we issued a Department-wide conference-
planning policy as part of a travel handbook within the Office 
of the Chief Financial Officer. This handbook delineates DHS-
wide policy regarding employee travel expenses and conference 
planning. The handbook also provides official travel policies 
and guidance to DHS employees throughout the Department.
    The conference-planning policy was based on current 
regulations and is consistent with the Federal Travel 
Regulation.
    In March 2009, DHS launched the Department-wide efficiency 
review to trim costs, streamline operations, and manage 
resources across the Department more effectively. Two of these 
initial initiatives under the efficiency review deal with the 
subject of this hearing: Travel expenses and conference 
planning, including the use of Government facilities for 
conferences. The intent is to ensure that DHS operates in the 
most economical and efficient manner.
    Specifically, every effort should be made to conduct 
meetings, conferences, and trainings using the least costly 
method to the Government. DHS will ensure all travel is 
essential in carrying out its mission and will make every 
effort to use means such as conference calls, local area 
events, web-based communications to reduce costs.
    Some of the key elements of our new policy include 
requiring each component to have a senior accountable official, 
to ensure that components adhere to DHS travel policies, 
including making sure all travel is mission-critical, and 
having the appropriate documentation.
    It also includes requiring conferences or training events 
to be held within the local commuting area of the majority of 
conference attendees. It requires that conference sites outside 
the local commuting area may not be selected until it is 
critical for meeting mission needs and that the appropriate 
cost-benefit analysis has been done.
    For Nation-wide conferences, components must also perform a 
cost-benefit analysis and get at minimum three proposals. 
Further, in selecting conferences' sites, officials must first 
consider Government facilities and must document if the use of 
Government facilities is not appropriate.
    In December 2009--excuse me, November 2009, DHS established 
a conference and event planning services working group that has 
membership from throughout the Department. This group is tasked 
with making sure we leverage our DHS resources both in terms of 
ensuring we have adequate knowledge and use of Government 
facilities and leverage--excuse me, spending through strategic 
sourcing.
    We have had success stories from this, both in reducing the 
cost of travel, using web-based conferencing, and we look 
forward to both refining our policy further and making sure 
that the policies are carried out throughout the Department.
    Thank you.
    [The statement of Ms. Duke follows:]

                  Prepared Statement of Elaine C. Duke
                           December 17, 2009

    Chairman Carney, Ranking Member Bilirakis and Members of the 
subcommittee, thank you for this opportunity to discuss conference 
spending, practices, and oversight within the Department of Homeland 
Security (DHS).
    The Department encourages and supports employee participation in 
Federal and non-Federal meetings and conferences. Such events are 
excellent means to exchange and communicate ideas and knowledge. 
However, there is also a need to ensure that attendance at meetings and 
conferences is mission-critical, as prescribed in management directives 
and other policies.
    Generally, an employee may attend a meeting or conference when the 
employee is selected to deliver a paper or to serve as a participant; 
when attendance will benefit the employee's subsequent job performance; 
or when substantial professional advantage beneficial to DHS is 
expected.
    We appreciate the Inspector General's recommendations in the ``DHS 
Conference Spending Practices and Oversight'' report and concur with 
the majority of the findings. However, when reviewing the data, it must 
be noted that the report is based on the Department facilitating 
conferences and off-site activities for fiscal years 2005 through 2007.
    In October 2008, we issued a Department-wide conference planning 
policy as part of a Travel Handbook within the Financial Management 
Policy Manual. The handbook delineates DHS-wide policy regarding 
employee travel expenses and conference planning. The handbook also 
provides official travel policies and general travel guidance to 
employees of DHS and our components. The conference planning policy was 
based on current regulations and guidelines outlined in the Federal 
Travel Regulation.
    In March 2009, the Secretary launched a Department-wide Efficiency 
Review Initiative to trim costs, streamline operations, eliminate 
duplication, and better manage resources across the Department. 
Elements of the efficiency program, specifically the travel and use of 
Government facilities initiatives, have already generated Department-
wide policies covering the conference planning process. The Secretary's 
intent is to ensure DHS operates in the most economical and efficient 
manner possible. Specifically, every effort should be made to conduct 
meetings, conferences, and training using the least costly method to 
the Government. DHS will ensure all travel is essential in carrying out 
its mission and will make every effort, using means such as conference 
calls, local area events, and web-based communications, to reduce costs 
to the Government.
    Building upon the two Efficiency Review initiatives--regarding the 
use of Government facilities and regarding travel--DHS is currently 
working to establish a comprehensive ``One DHS'' policy on conferences. 
In November 2009, DHS established a Conference and Event Planning 
Services working group, which has surveyed components to gather 
requirements for events across the Department and is conducting market 
and industry research with internal Government event planners. The 
working group is also developing a resource package with low- or no-
cost alternatives--such as information on the usage of Government 
facilities--for employees to use while planning conferences and events.
    The Efficiency Review Action Directive on travel requires each 
component to designate a senior accountable official to ensure that the 
component adheres to travel policies and that mission-critical travel 
is conducted as efficiently and effectively as possible. Conferences or 
training events are required to be held within the local commuting area 
of the majority of the conference attendees; a conference site outside 
the local commuting area may not be selected unless it is critical for 
meeting mission needs or an internal cost-comparison analysis has 
demonstrated that the savings attributable to use of the particular 
site in question will offset the transportation and per diem costs of 
the conference attendees. For Nation-wide conferences, components must 
perform a cost comparison of location and facility alternatives to 
ensure requirements are met at the lowest possible cost. Further, both 
the Action Directive on travel and the Action Directive on facilities 
require that, when selecting facilities for conferences and meetings, 
conference planners, and approving officials must first survey internal 
Departmental and other Government resources. All analysis must be 
provided in writing and maintained on file by the conference approving 
official and the component Chief Financial Officer.
    We have had some great success stories in our travel and conference 
planning this year--large and small--across the Department. Examples 
include:
  <bullet> A recent Industry Day conference to introduce the EAGLE II 
        procurement used Microsoft Live Web-conferencing, reaching more 
        than 600 participants across the country, generating $10,000 in 
        cost avoidance.
  <bullet> U.S. Customs and Border Protection restructured its mission 
        support training forum by posting training material on its 
        website and by conducting local and web-based training instead 
        of gathering mission support personnel in a single commercial 
        location; these actions avoided approximately $640,000 in 
        travel and administrative costs.
  <bullet> Immigration and Customs Enforcement personnel utilized U.S. 
        Army lodging facilities in lieu of hotels when attending an 
        advanced firearms training, realizing more than $188,000 in 
        cost avoidances in fiscal year 2009.
  <bullet> United States Citizenship and Immigration Services realized 
        a cost avoidance of $130,000 in fiscal year 2009 by replacing a 
        management training that previously required the rental of 
        private facilities with a telephonic training.
  <bullet> The Federal Law Enforcement Training Center saved more than 
        $104,000 in travel and per diem costs by holding its biennial 
        Leadership Conference for senior managers at its office instead 
        of a private facility.
  <bullet> The Transportation Security Administration's Field 
        Leadership Council, an advisory committee comprised of airport 
        Federal Security Directors and Special Agents in Charge, has 
        begun utilizing video teleconferencing in lieu of meeting in 
        person, avoiding $28,560 in fiscal year 2009 in travel and per 
        diem costs.
    Thank you, Mr. Chairman and Members of the subcommittee for your 
interest in and continued support of DHS programs. Thank you for the 
opportunity to testify before the subcommittee about the DHS travel and 
conference program. I will be happy to answer any questions you or the 
Members of the subcommittee may have.

    Mr. Carney. Thank you, Ms. Duke.
    As you have heard, we have been called to votes. We have 
about 4 minutes left. We will suspend the hearing until after 
the votes, and we will reconvene 10 minutes after the last vote 
is held.
    I want to be respectful of your time, both of you. I 
understand you have a lot of pressures. But, Ms. Duke, 
especially, we would like--we understand you have to leave to 
be someplace later on. If you could stay for at least one round 
of questions before you depart, we would appreciate that.
    Ms. Duke. Yes, Mr. Chairman. I would be happy to.
    Mr. Carney. Thanks so much.
    Okay, with that, we stand suspended.
    [Recess.]
    Mr. Carney. The subcommittee will reconvene. I wanted to 
thank the witnesses for their testimony. If there is no 
objection, I would like to submit for the record the written 
testimony that was received from the National Business Travel 
Association. Hearing no objection, their written statement will 
be entered into the record.
    [The information follows:]

      Statement of The National Business Travel Association (NBTA)

    The National Business Travel Association (NBTA) submits the 
following comments in response to the House of Representatives Homeland 
Security Committee's Management, Investigations, and Oversight 
Subcommittee hearing on February 4, 2010 entitled ``Furthering the 
Mission or Having Fun: Lax Travel Policies Costs DHS Millions.''

                               BACKGROUND

    The National Business Travel Association (NBTA) is the world's 
premier business travel and corporate meetings organization. NBTA and 
its regional affiliates--NBTA Asia Pacific, the Brazilian Business 
Travel Association (ABGEV), NBTA Canada, NBTA Mexico and NBTA USA--
serve a network of more than 15,000 business travel professionals 
around the globe with industry-leading events, networking, education & 
professional development, research, news & information, and advocacy. 
For nearly 40 years, the association has been dedicated to the 
professional development of its members and the advancement of the 
business travel management community through advocacy, education and 
training, and networking opportunities.
    Today's hearing on a report by the Department of Homeland Security 
(DHS) Inspector General (IG) on the use of taxpayer dollars for 
conferences, retreats, and other off-site activities highlights two 
issues. The first is the effective management of travel policies to 
achieve Government objectives. The second is a larger issue--the 
overall value of business meetings and conferences.
    After assessing the IG report, NBTA believes that DHS should 
immediately implement a new Government travel management program to:
    (1) Develop internal controls related to the implementation of 
        travel policies;
    (2) Provide oversight of how Government employees spend their 
        travel dollars; and
    (3) Implement a more effective reporting structure for conference 
        planning and spending practices.
    This program should be led by a certified Government travel buyer 
and supported by training resources that will help keep DHS travel 
management practices up to date in order to effectively serve the 
public interest.

Issue 1--Effective Management of Government Travel
    In addition to a wide array of private sector training and 
education, NBTA also offers educational events and programs focused on 
the needs of Government travel managers.
    The Government Travel Group (GTG) is committed to ensuring that 
members have the tools and information to successfully manage travel 
programs. This is accomplished by:
  <bullet> Facilitating an environment that allows for sharing of 
        information affecting Government travel programs;
  <bullet> Promoting the education of Government travel professionals; 
        and
  <bullet> Providing support to those managing travel programs in 
        Government agencies by providing information via the GTG News 
        Brief, and on-line databases designed specifically for 
        Government travel professionals.
    NBTA believes that Federal agencies, like private sector entities, 
have a responsibility to wisely manage travel and meetings costs, while 
providing transparency and accountability. Additionally, a well-managed 
travel program should include the following practices:
  <bullet> Expense reporting;
  <bullet> Cost containment; and
  <bullet> Policy compliance.
    In our view, all of these practices are consistent with President 
Obama's Good Governance initiative, which calls for responsible 
spending of taxpayer funds.

                   THE IMPORTANCE OF A TRAVEL MANAGER

    The complexities of the industry have evolved the role of a 
Government travel manager into a multi-faceted function that ranges 
from service to quality control to analysis and expense management. The 
travel manager counsels and advises employees on matters relating to 
business travel to include booking methods and cost-effective travel 
considerations. He or she will also regularly facilitate surveys of 
travelers to assure that services are at required levels and will 
publish traveler satisfaction results to demonstrate on-going customer 
satisfaction. The travel manager will work to establish Quality 
Assurance (Service Level Agreements/SLA's) agreements with suppliers to 
ensure the highest standards are measured and achieved. Recommendations 
should be made for integrated, comprehensive travel programs by working 
with key stakeholders. A travel manager will utilize travel management 
reporting tools and use these assessments to ensure policy compliance, 
make recommendations and implement changes to the travel program. 
Expense management is realized in the development and management of the 
Departmental budget, providing a consultative role within the agency 
with regard to future travel cost budgeting and providing 
recommendations for improving expense management strategies within the 
agency.
    In addition, the travel manager serves to develop and distribute 
information regarding traveler safety and security. In doing so, he/she 
is responsible for overseeing the implementation of traveler tracking 
and alert systems available through multiple sources, including the 
preferred travel management companies, on-line booking technology, 
Government agencies and outside security suppliers when appropriate. 
The manager is also responsible for the development of a Travel 
Management Services Crisis Plan in conjunction internal company 
departments including human resources and risk management and also with 
preferred travel management companies or key suppliers.
    To help educate the Government travel manager on the roles and 
responsibilities that come with this position NBTA, working with 
several Government agencies, developed the Certified Government Travel 
Executive Program (CGTE). The CGTE program is aimed at helping 
Government travel professionals meet the demands that come with 
managing multi-faceted travel programs. The knowledge and skill sets 
gained from completing the CGTE program help to build a strong leader 
and a successful Government travel manager.
    CGTE is a comprehensive program that enables participants to:
  <bullet> Define the scope and responsibility of the Government travel 
        manager;
  <bullet> Discover new ways to communicate ideas to employees and 
        superiors;
  <bullet> Network with peers that represent all branches of Government 
        and various sectors of industry; and
  <bullet> Attain professional growth and development as a leader 
        within your agency or company.
    The CGTE is modeled on NBTA's education program for private sector 
travel managers, the Certified Corporate Travel Executive (CCTE) 
program. The CCTE is designed to help corporate travel managers adapt 
to the changing global business environment by using corporate travel 
as a strategic tool.

Issue 2: Value of Business Meetings
    Earlier this year, Senate Majority Leader Reid noted the importance 
of travel and meetings to the economy. In a letter to the Treasury 
Department, he notes: `` . . . conventions and meetings are a routine 
and accepted part of running a successful enterprise in this country. 
Sales of products and services, networking opportunities, and 
negotiating and consummating transactions all come from these types of 
meetings, leading to productivity and growth for companies that 
ultimately create jobs. In turn, these functions create another 2.4 
million jobs annually for those businesses that host and provide 
services to them.''
    While there are many well-known examples of mismanagement of travel 
in the private sector, today's hearing brings these same challenges to 
light in the Government context. It is easy to forget, as a result, 
that travel is not a ``perk'' for many individuals. Indeed, for these 
people, it is a job requirement that takes them away from family for 
long periods of time, sometimes to remote areas around the globe. As a 
result, it is incumbent upon the employer--public or private--to 
provide safe, economic, and efficient guidelines to the traveling 
employee.
    NBTA and the travel industry are quite aware of the negative 
portrayal of business travel and events permeating the media in the 
wake of several high-profile meetings over the last year. In truth, the 
vast majority of meetings, conventions, and conferences are cost-
efficient, well-planned tools used by companies to drive business. 
Additionally, business meetings are an economic benefit to the host 
city and local businesses.
    All told, the travel industry is a major component of our Nation's 
economy, directly supporting 2.4 million jobs and accounting for $240 
billion in spending and $39 billion in tax revenue at the Federal, 
State, and local levels, with the average meeting or event traveler 
spending about $1,000 per trip. However, recent statistics from the 
Department of Labor report that nearly 200,000 travel-related jobs were 
lost in 2008 and another 247,000 are expected to be lost in 2009. While 
NBTA supports the Government crackdown on excessive travel and 
entertainment spending by Troubled Asset Relief Program (TARP) 
recipients companies, we encourage the Government and media to promote 
responsible travel in order to help our Nation's economy recover.
    As an example of the importance of business travel and attending 
meetings, NBTA recently released a survey indicating that corporate 
travel buyers attending the NBTA Convention in 2007 and 2008 reported 
that their attendance has helped them save their companies, on average, 
11 percent of their annual Travel and Entertainment (T&E) budget. These 
savings are based on negotiating travel deals with suppliers and 
learning about cost-saving ideas in formal education sessions and 
informal discussions with their colleagues.
    In the case of NBTA's annual convention, there is significant 
economic data indicating a strong return on investment for this 
meeting. With an average T&E spend of $125.5 million, the average 
savings resulting from NBTA Convention attendance is about $13.9 
million. Assuming an investment of $1,950 (round-trip airfare, 3 
night's lodging, registration fee, meals not provided, and 
incidentals), the average attendee's ROI is well over 7,100 percent.
    While NBTA is obviously most familiar with the economics of its own 
convention, we are confident that other industries derive similar 
benefits from their own meetings and conventions.

                               CONCLUSION

    The National Business Travel Association believes a well-managed 
travel program ensures agencies such as the Department of Homeland 
Security are following guidelines that specifically include expense 
reporting, cost containment, and policy compliance. This outcome is 
exactly the type of transparency and accountability the Obama 
Administration has sought. Thus, NBTA encourages not only the 
Department of Homeland Security, but all relevant Government agencies 
to train its travel department and institute an agency-wide managed 
travel program.

    Mr. Carney. I will remind each Member that he or she will 
have 5 minutes to question the panel. I will now recognize 
myself for 5 minutes.
    Ms. Duke, starting out with you, when Department operations 
held its annual conference for administrative officers in the 
District of Columbia, instead of holding it at a Government 
venue, DHS hosted 650 employees at the Mandarin Oriental, a 
four-star luxury hotel and spa, at the cost of $100,000 a day 
for 3 days.
    Was a cost comparison done to justify such a cost? How was 
that chosen as the venue? What happened there?
    Ms. Duke. In that particular case, there was a cost 
comparison done, and there were quotes from several vendors. 
One of the challenges is finding a venue for that many people. 
It is a high cost. It is the annual training conference for 
that group of individuals.
    But since that conference, we have looked at not only the 
actual costs, but the appearance of costs and making sure that 
DHS isn't representing itself in a way that we are having 
events at those type of establishments.
    Mr. Carney. Because in your opening comment, you mentioned 
that you need to use the least costly. You couldn't have come 
down a couple of stars on that, in terms of----
    Ms. Duke. Yes.
    Mr. Carney. Okay. Now, the number of folks that attended, 
also, 650 seems like a very healthy number. Was there any kind 
of criteria to screen the number that decided how many people 
should actually attend?
    Ms. Duke. I think there are two types of conferences. There 
are conferences in which we are looking at minimizing the 
number of attendees. That particular conference is really a 
training event. It is an annual event for DHS employees in the 
administrative fields to get training on the latest policy, 
both Federal and DHS. So it is important in that particular 
case for the employees that need the training to attend.
    Mr. Carney. Okay. We will return to this.
    I want to ask Mr. Mann a question. Mr. Mann, who in DHS is 
in charge of management and oversight of the conference 
spending?
    Mr. Mann. It appears as if it is so decentralized that 
individual agencies run their own conference management shops. 
We did not identify anyone in DHS who had central 
responsibility for managing conferences.
    Mr. Carney. Who should have this responsibility, given the 
organization chart of the Department?
    Mr. Mann. Well, the recommendations in our report were sent 
to Ms. Duke's office. It is our feeling that that is where the 
management oversight should be.
    Mr. Carney. Ms. Duke, do you agree? Is that correct?
    Ms. Duke. I agree that management should have the 
oversight. I do believe with our functional integration model, 
though, that some type of--not as decentralized as it was, but 
decentralized decision-making is appropriate.
    Mr. Carney. Mr. Mann, do you think the conferences in the 
end helped further the mission of the agency? Or did it--was 
there a value added? Did we get the kind of bang for the buck 
that we were after here?
    Mr. Mann. Well, I think that we did. It is actually hard to 
determine in some cases simply because we didn't have a good 
system to measure or the Department doesn't have a good system 
to measure the success or the value that the individuals have 
gotten for their conference attendance.
    But given the variety of missions that are within DHS, the 
need to exchange information, we don't question necessarily the 
number of conferences or the purposes of the conferences. We do 
believe that they do add value to the Department.
    Mr. Carney. Mr. Mann, when one of the DHS officials told 
the Office of Inspector General that there is no reason to 
track conference expenditures because there is no spending 
restrictions, is that true? I mean, are there no spending 
restrictions in place? Have there been no guidelines? If they 
don't track the spending, how do we know it is even $110 
million that was spent? Could it have been more?
    Mr. Mann. It could have been--you raise a very interesting 
point, and that is one of the premises of the report that we 
provided. We are not certain. We certainly believe from 
inspector general's perspective--and just from a reasonable 
method of managing anything--we believe that there should be 
some accountability, there should be tracking systems, there 
needs to be at least the ability to compare costs to determine 
whether or not the Department is, in fact, getting what it is 
paying for, and that the information on--I am sorry, but that 
the money is being allocated to events that further the 
Department--that further the mission of DHS.
    Mr. Carney. Okay. Well, thank you.
    I now yield 5 minutes to Mr. Pascrell.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Thank you, Ms. Duke, Under Secretary, and Mr. Mann, for 
your work at the request of the Chairman of this committee. I 
would imagine that when you were examining what happened during 
this 2005 to 2007 period of time, you must have had some real 
eye-openers, and you must have said to yourselves, ``This can't 
be.''
    Because the same transparency and accountability that we 
have asked of every agency in homeland security, as well as the 
Department itself, doesn't exist in most of the agencies of 
homeland security. This is a systemic problem within the 
Department for there not to be any checks and balances.
    So what we have here is, Mr. Chairman, I would think we 
could conclude that there is bureaucracy upon bureaucracy. When 
there is bureaucracy, there is no accountability. It doesn't 
matter whether we are talking about December 25 or we are 
talking about budget stuff or we are talking about what 
happened here.
    The figures that Homeland Security gave you about the 
expenditures of traveling during this time and the figures from 
Mr. Mann are quite different, aren't they, Mr. Mann?
    Mr. Mann. That is correct.
    Mr. Pascrell. How can you have such discrepancy--we are not 
talking about a few thousand dollars here. We are talking about 
a huge gap between what has been recorded and then what you 
found. Specifically and briefly, why?
    Mr. Mann. Well, it is our impression that the 
decentralization of what might occur in planning a conference, 
acquisition of facilities could occur or could be managed by 
one portion of an entity. The accounting--I mean, it could be--
it is so separated that it doesn't necessarily mean that the 
costs are not justified, but they are not consolidated to a 
point where the final cost of a conference could be assumed 
with relative surety, because information is scattered. It is 
not within one place within any component.
    Mr. Pascrell. Whose responsibility is it for putting these 
numbers all together, to having at least the facade of an 
integrated system?
    Mr. Mann. That is a good question, sir. I am not certain.
    Mr. Pascrell. I think you are being very frank, because 
when you go through the maze of the charts--who would you say, 
Ms. Duke, is responsible?
    Ms. Duke. Recently, within the last year, we have 
identified what is called a component accountable official, so 
there is one official in each component, and then it is in 
the--over the oversight of my office, through the chief 
financial officer.
    Mr. Pascrell. These officials do know what receipts and 
vouchers are necessary to prove work product, correct or 
incorrect?
    Ms. Duke. Yes, that is correct.
    Mr. Pascrell. Apparently they didn't know that before or 
there was no one person assigned to each of these entities, is 
that correct?
    Ms. Duke. That is correct.
    Mr. Pascrell. Let me ask you this question. Who is in 
charge of booking travel for the Department?
    Ms. Duke. That is decentralized. There is not one central 
place where travel is booked.
    Mr. Pascrell. So, in other words, any one of those agencies 
previously could have reached out to whomever through the 
procurement office officer in order to try to get quotes on how 
much it costs? Did they have one travel agency?
    Ms. Duke. For conference planning, there is not one travel 
agency. For individual Federal travel or the employee 
traveling, there is a mandatory source.
    Mr. Pascrell. This reminds me of another scam that we came 
across 4 years ago, 5 years ago. Remember Shirley Limousine? 
Remember that paper?
    Ms. Duke. Yes.
    Mr. Pascrell. I remember it very, very well. The person who 
controlled that organization was a felon. I mean, that doesn't 
make him a bad guy, I guess, but he was a felon. We can't 
figure out how we got the contract.
    If there is--there being such a huge discrepancy in the 
numbers here, Mr. Mann, am I using hyperbole to suggest that 
there might be something crooked going on here in certain 
instances, something perhaps indictable, something criminal? I 
mean, am I too far off on the limb? Tell me. I will come back--
--
    Mr. Mann. Well, I would be hard pressed to say that there 
is criminal. I think that what the Department needs is better 
documentation. It doesn't necessarily mean that the activities 
were criminal or--but----
    Mr. Pascrell. But it is harder to find because the 
documentation is not there.
    Mr. Mann. That is correct.
    Mr. Pascrell. If I was a criminal trying to cover up the 
actions, no one accountable, it would be a lot easier, wouldn't 
it, Mr. Mann?
    Mr. Mann. It would be, yes.
    Mr. Pascrell. It would be. So I would hope--and thank you 
for all of the work that you have done, Ms. Duke, to clean up 
other people's messes in the past 3 years. I am sorry to hear 
that you are leaving. If they had any brains, they would make 
you a big offer. I am going too far, but what can I tell you?
    I hope that people will listen--I know you are gaveling me 
because I am telling some things here--but I hope----
    Mr. Carney. No, because your time is up.
    Mr. Pascrell. I know. My time is always up. I thank you for 
all your service.
    Thank you, Mr. Mann, as well.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Pascrell, certainly.
    Mr. Green, I know that you were here first, but I am going 
to recognize the Ranking Member for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you so very much. 
Appreciate it. Can I insert my statement in the record? I would 
like to do that.
    Mr. Carney. So ordered.
    [The statement of Mr. Bilirakis follows:]

         Prepared Statement of Ranking Member Gus M. Bilirakis
                            February 4, 2010

    Thank you, Mr. Chairman.
    At many of our hearings this Congress, I have expressed my view 
that we must ensure that vital homeland security funding is spent as 
efficiently and effectively as possible, and conference spending is no 
exception.
    Of course, attendance at conferences is important in helping the 
Department to fulfill its mission, be it through training, exercises, 
or even networking. After all, the time to exchange business cards is 
not during the response to a disaster.
    However, the Department must be a good steward of taxpayer dollars 
when planning conferences or other travel and deciding which staff will 
attend.
    To that end, I am looking forward to hearing from Ms. Duke about 
efforts underway at the Department to implement the Inspector General's 
recommendations and ensure that a Department-wide conference policy is 
in place.
    It is also important that the Department be able to adequately 
track and report its spending on conferences. It is my hope that the 
Department will leverage the technology from its financial management 
consolidation efforts to achieve this goal.
    I am also looking forward to Mr. Mann's testimony and am 
particularly interested in lessons learned and best practices from both 
within DHS and within other Federal agencies and departments that the 
Department could implement to ensure it has sound conference planning 
and tracking capabilities.
    We should also practice what we preach. From January 1 through 
September 30 of last year, the Committee on Homeland Security spent 
nearly $73,000 on travel-related expenditures. This amount of spending 
exceeds the travel expenditures of all other House committees, with the 
exception of the Appropriations Committee.
    This past August, 14 committee staffers--11 Democrats and 3 
Republicans--traveled to Australia and Thailand. While I'm sure there 
were many benefits to this staff travel, we must ask ourselves the same 
questions that we are asking the Department: Was this necessary and 
reasonable?
    I also find it ironic that, at the same time this subcommittee was 
originally scheduled to hold this hearing entitled, ``Furthering the 
Mission or Having Fun: Lax Travel Policies Cost DHS Millions,'' staff 
from the Department was traveling with staff from this committee, to 
among other places, Las Vegas, at a likely cost of tens of thousands of 
dollars to taxpayers.
    I don't doubt the value of the information this trip provided to 
our committee staff, but I wonder whether there would have been more 
appropriate venues to visit where the same things could have been 
learned more cost effectively for taxpayers.
    Mr. Chairman, we must all work together to ensure that money spent 
by the Federal Government is put to the best use. I look forward to 
working with you and the Department to ensure this is done.
    Before I yield back Mr. Chairman, I wanted to take the opportunity 
to recognize Under Secretary Duke for her service. This may be the last 
time she testifies before this subcommittee and I want to thank her for 
her willingness to work with our committee and for all of her efforts 
to enhance the Department of Homeland Security. Secretary Duke, you 
will be missed.
     Thank you, Mr. Chairman. I yield back the balance of my time.

    Mr. Bilirakis. Thank you.
    Secretary Duke, the inspector general's report noted the 
difficulty they had in obtaining conference data because it 
was--the manual was--it was a manual process. Much of the 
requested data is several years old. Is the Department better 
able to track and produce data from more recent fiscal years? 
If not, what plans do you have to enhance your tracking 
process? Will you leverage the capabilities of TAS to achieve 
better visibility into conference spending?
    Ms. Duke. The accountability is better now because we have 
one central person, but it is still a manual system, and we are 
looking at TAS to be part of the solution for automated 
financial controls. Additionally, we are moving to a standard 
classification system for financial, so what Mr. Mann said 
doesn't happen where things are accounted for in different 
ways, in different components.
    Mr. Bilirakis. Thank you. Next question, again, for you, 
Madam Secretary. Portions of the Secretary's efficiency review 
initiative focused on spending related to travel and 
conferences. You touched on some of the outcomes in your 
testimony. Could you elaborate on the findings or outcomes of 
the initiative? Does the conference data provided to the 
inspector general's office include spending for 
Congressionally-requested trips and side visits?
    Ms. Duke. No, the IG report was just on conferences, so it 
would not include the Congressionally-requested trips. What we 
are doing is--in addition to the accounting that Mr. Mann 
talked about--really looking at the mission essential, the 
number of people we send, what type of facilities we use, as 
the Chairman said. So it is really a comprehensive look.
    Also, travel, how many people we send on travel and the 
cost of that travel is a huge part of conference spending.
    Mr. Bilirakis. In your testimony, you noted the importance 
of conferences for staff as a learning tool and a forum for the 
exchange of ideas. As a Member from a State that heavily relies 
on tourism, I know those conferences can also be valuable to 
the local economy. How does the Department and its components 
determine where to hold the conferences?
    Ms. Duke. Under the new rule, we look at where most of the 
attendees will be from and look for local sites. We require 
competition among the sites, preferably, again, where most of 
the attendees are located so we don't have those travel costs. 
We require at least three proposals to look at, to get a low-
cost alternative.
    Mr. Bilirakis. Thanks for that information. Is there a 
mechanism to determine the return on investment for travel to 
meetings and conferences in terms of increased productivity or 
improved performance?
    Ms. Duke. Currently, we have satisfaction surveys, but we 
don't have a systemic way to look at increased productivity, 
no.
    Mr. Bilirakis. Okay. Mr. Mann, what lessons learned or best 
practices from other Federal agencies or departments could the 
Department implement to strengthening its conference oversight?
    Mr. Mann. Well, one of the things that DHS did, for 
example, the Coast Guard has an annual commanders conference, 
and it is based on when Coast Guard individuals rotate. Now, 
for 2009, the commanding officer for this particular district 
of the Coast Guard who sponsors this conference recognized that 
there was no rotation among the Coast Guard officers and 
decided not to hold the annual conference, simply because it 
was scheduled, which potentially saved $113,000 for the 
Department.
    So I think that broader scrutiny with regard to whether an 
annual--whether a conference is needed, whether there are 
alternative methods to providing conference information 
certainly should be looked at.
    Mr. Bilirakis. Okay, I understand your report was completed 
last November. Have you been monitoring the Department's 
implementation of your recommendations since that time? If so, 
please tell us the progress.
    Mr. Mann. There were 12 recommendations in the report. In 
the Department--we were able to close one of the 
recommendations almost immediately. The Department is due to 
provide us with its corrective action plan within the next 
couple of weeks.
    Mr. Bilirakis. Okay. Based on your review of the Department 
of Homeland Security, would you recommend any changes to the 
Federal travel regulations that would promote greater 
efficiency throughout the Executive branch?
    Mr. Mann. No, I think the Federal travel regulations are 
adequate for their purposes.
    Mr. Bilirakis. Okay. Thank you very much. No further 
questions. I yield back.
    Mr. Carney. Thank you, Mr. Bilirakis.
    The Chair now recognizes Mr. Green, from Texas, for 5 
minutes.
    Mr. Green. Thank you. I thank you and the Ranking Member. I 
thank the witnesses for appearing, as well.
    I am always sensitive when it comes to issues of this kind. 
I am sensitive for two reasons. One, they are hard-working 
employees who don't merit having a broad brush touch them. What 
I would want to understand is that this is not something that 
is so pervasive that all of the employees should somehow be 
viewed in a negative light.
    Ms. Duke, would you kindly comment please, so that the 
record will reflect an opinion about this?
    Ms. Duke. Yes. I mean, I think when you look at the 
conferences even listed in the appendix of the IG report, the 
predominance even in just that summary are clear of why they 
were needed. It was going to sites to meet with small 
businesses, to do employment fairs, those type of things.
    What we have to do is be better about documenting and make 
sure we do those necessary events, that they are done in the 
most cost-effective way, including the travel costs, the hotel 
costs, or use of Government facilities.
    So I think that, in looking through the list of 
conferences, the employees that attended gave value. They were 
mission-critical. We just have to handle the fiduciary side of 
it a little more completely and effectively.
    Mr. Green. Mr. Mann, would you care to comment, please?
    Mr. Mann. Certainly. I think that a part of the issue here 
is a lot of employees are just not familiar with travel 
regulations. For example, in cases where meals might be 
provided as a part of the conference, we determined that there 
were some instances where employees were still getting per 
diem.
    It is our impression that there is certainly nothing 
criminal--there is no criminal intent in that, but just a basic 
unfamiliarity with the rules and regulations as it pertains to 
what can be vouchered on their travel expense documents versus 
what cannot.
    We in the IG certainly see the value in having conferences 
of this nature. I mean, we have our own conference within the 
IG, where it is an opportunity to share information, and then 
we are all hearing the same thing at the same time.
    So we certainly support conferences. But as Ms. Duke said, 
the real issue here is documentation that really doesn't make 
everything add up to indicate that the amount spent for 
conferences was, in fact, appropriate.
    Mr. Green. We do have a list of conferences--selective 
conference activity for review. As I look at this, I would just 
like for you to just give some indication as to whether or not 
these are legitimate conferences. There was a case where 150 
employees attended a leadership conference that cost $28,995. 
Was that a legitimate conference?
    Mr. Mann. Are you asking me, sir?
    Mr. Green. Yes, sir. Do you have the same information that 
I have, where we have----
    Mr. Mann. I am not exactly sure.
    Mr. Green [continuing]. A conference--this is a conference 
in St. Simons Island. Don't have that? Okay, let me do this, if 
I may. Having been a trial lawyer, may I approach the witness, 
Mr. Chair?
    Mr. Carney. You may ask your questions, Mr. Green.
    Mr. Green. Okay. Well, then may I have this given to the 
witness?
    Mr. Carney. Yes, that would be fine.
    Mr. Green. Okay, thank you. Here. Okay, would you pass that 
to the witness, please?
    Mr. Mann. You know, while that is on its way to me----
    Mr. Green. I may have to interrupt, because I only have a 
minute and 2 seconds left. So let me just hurriedly go through 
these, and perhaps the Chair will give you the additional time. 
The first listed, the first bullet, 150 employees, leadership 
conference, $28,995. Was that a legitimate conference?
    Mr. Mann. To be perfectly honest with you, sir, our scope 
did not involve determining the legitimacy of the conference. 
It was, we took what we were able to get from the Department at 
face value. I know it is a terrible thing to assume that it 
wasn't legitimate, but it would be assumption that it was a 
legitimate conference. Perhaps Ms. Duke can elaborate.
    Mr. Green. Ms. Duke, can you tell me, please?
    Ms. Duke. I can get back for the record, but I think when 
we looked through all these conferences, they were legitimate. 
I know that that particular CBP conference, in later years, 
they did it by technology, rather than holding an in-person 
conference on that particular CBP one.
    Mr. Green. Let me ask--Mr. Chairman, may I ask one 
additional question? My time is up, and I don't want to abuse 
the privilege.
    Mr. Carney. I appreciate you asking. Because of that, you 
will be granted additional time.
    Mr. Green. Thank you, Mr. Chairman.
    Just quickly, we have this list that I have accorded you. 
Is there any conference on this list that is not a legitimate 
conference?
    Ms. Duke. I don't see any on the list that are not 
legitimate conferences. Again, we have to be efficient in the 
number of people we send, where we have them, but in terms of 
the topics that are on this list, I believe they are all 
mission-essential conferences, as we have described it.
    Mr. Green. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Green.
    Ms. Duke, the DHS reimbursed employees for gala tickets, 
for $8,000 plane tickets. Where was that to and from? Do you 
have any idea what would make a ticket cost $8,000?
    Ms. Duke. There are cases of business-class or first-class 
travel, and that would be--an international business-class 
travel ticket would be in that range. We have tightened up 
quite a bit our policies and our actual activity on business- 
and first-class travel.
    Mr. Carney. Does that include the luggage fees and box 
lunch fees and things like that, too? Now, something that was 
sort of troubling to me is that people were reimbursed for free 
meals. At what rate were they reimbursed for free meals? How 
did they submit a claim for a free meal? They knew the meal was 
free.
    You know, not to put too fine a point on what Mr. Pascrell 
was saying, but was there some mischief here, somebody trying 
to game the system in this respect? This is for both of you, by 
the way.
    Ms. Duke. The issue is that an employee gets per diem, so 
much a day, and when they have a free meal--say, the conference 
has lunch because there is a speaker--they are supposed to 
deduct that lunch piece of per diem. It is a manual 
calculation, and it looks like--and those were the cases in the 
IG report that it was not done.
    So we have reinforced training, both of the travelers, but 
also each one of those is approved by an approving official to 
look for those type of things and make sure they are done 
properly.
    Mr. Carney. Oh, so these approving officials were not 
consistent throughout the Department? Is that a problem?
    Ms. Duke. The supervisor or someone in the chain of command 
is usually the approving official for both the travel and the 
travel voucher.
    Mr. Carney. Okay. But within the various agencies within 
the Department, there is not consistency or there hasn't been?
    Ms. Duke. Correct, in terms of how much--how, I guess, 
closely they look at those and didn't--obviously, there were 
some approving officials that didn't notice that, so they 
weren't looking at them closely enough.
    Mr. Carney. Please tell me this is getting fixed.
    Ms. Duke. It is.
    Mr. Carney. Okay, thank you.
    Mr. Mann.
    Mr. Mann. I am not certain at all employees are aware of 
the travel regulations and what they actually need to deduct. 
That in our mind is a training issue.
    Of course, there could be employees who are very 
knowledgeable about the system and figure out a way to get a 
few extra dollars. I mean, we can't discount that. But I 
seriously--I think it is a training issue more than an issue of 
individuals trying to capitalize on free meals.
    Mr. Carney. Okay, thanks.
    Ms. Duke, the news reports indicate that, in 2008, DHS 
spending on travel was second only to the Department of 
Defense. Obviously, we all agree that we have a need for 
legitimate travel and the conferences are valuable and that 
sort of thing.
    When you get that big of a number, I mean, when we close in 
on DOD numbers, how can we be sure that we are getting the kind 
of value that we need, that there are not folks gaming the 
system, that we are not being--sending folks to four-star 
hotels when three-star or two-star would do? You know, how do 
we make sure that happens?
    Ms. Duke. Well, I think two of the steps we have taken--one 
is centralizing that under an accountable official in each 
component and, secondly, just the cultural change of really 
scrutinizing it.
    I think it was--under the efficiency reviews, there has 
been a real cultural change to really look at travel, the 
necessity, and also the cost of it. We just have to continue 
that cultural change.
    Mr. Carney. So the time of DHS before the study was done, 
the 2005 to 2007 time frame, anything--and actually including 
those times--there was not the guidance, there was nothing in 
place that was built into the system of DHS for travel and 
conferences?
    Ms. Duke. There were a few policies out, but they were 
disjointed. The first time it was aggregated into one policy 
was in 2008 in the financial manual, and that was Department-
wide.
    Mr. Carney. Okay. Mr. Mann, from your perspective and that 
of the IG's, do you think DHS now is tracking properly and has 
recalibrated the way they need to do this?
    Mr. Mann. Well, first of all, I would like to commend Ms. 
Duke and her staff and actually all those individuals who we 
interacted with during the study for cooperation. We recognized 
that that time period, 2005 to 2007, was--well, DHS is still 
just 7 years old, was even younger then.
    With the number of entities that were pulled together, the 
mission being what it was, maybe not excusable, but certainly 
understandable how the travel situation got to be the way that 
it is.
    With the initiative of the October 2008 guidance, we 
believe that DHS is on the right track to recovering and 
preventing future occurrences of the same sorts of things that 
we have identified in our report.
    Mr. Carney. We will be interested in a couple of years to 
see how it has worked out.
    Mr. Bilirakis for 5 minutes, if you have questions.
    Mr. Bilirakis. Thank you, Mr. Chair. I appreciate it.
    I understand from January 1 through September 30 of last 
year, the Committee on Homeland Security spent $73,000 on 
travel-related expenditures. This amount, as you stated, Mr. 
Chairman, the spending exceeds the travel expenditures of all 
the other House committees, with the exception of the 
Appropriations Committee.
    This past August 14, the committee staffers traveled to 
Australia and Thailand. While I am sure there were many 
benefits to this staff travel, we must ask ourselves the same 
questions that we are asking the Department: Was this necessary 
and reasonable?
    I also find it ironic that at the same time the 
subcommittee was originally scheduled to hold this hearing, of 
course, travel and--``Furthering the Mission or Having Fun,''--
staff from the Department was traveling with staff from this 
committee to, among places, Las Vegas, at a likely cost of tens 
of thousands of taxpayers' dollars.
    I don't doubt the value of the information of this trip 
provided to our committee and staff, but I wonder whether we 
could find maybe a more appropriate venue, maybe something 
closer to Washington, DC.
    I have a question for Secretary Duke. How will elements of 
the administration's recently released fiscal year 2011 budget 
request for the Department of Homeland Security assist you in 
better regulating conference and traveling expenses?
    Ms. Duke. Probably the biggest is the budget request has--
does have funding for TAS, which is our financial system, to 
collect the data that would give the right amount of visibility 
that is virtually impossible with the current systems. Again, 
even with the centralization, it is manual, so that is the 
probably the element of the budget that would help us.
    Mr. Bilirakis. What mechanism does the Department have to 
recoup in properly provided funding?
    Ms. Duke. Well, in terms of, if we improperly pay invoices, 
we do have an auditing system for that and can recoup that way. 
For employees, if we--when we audit travel vouchers, we do have 
the ability to have them repay or we can garnish their wages if 
it is found that they were overpaid for a travel claim.
    Mr. Bilirakis. Okay, thank you very much.
    I will yield back, Mr. Chairman.
    Mr. Carney. Mr. Green for another 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Back to the list, I was starting at the top, and I would 
like to now move to the bottom of the list. There is an 
indication that some employees received black belt three 
training, and there is an amount listed, but was the training 
legitimate training? Is that related to the jobs that they 
perform?
    Ms. Duke. That one I am not familiar with, Mr. Green. I 
would have to get back for the record. I don't know what that 
training is.
    Mr. Green. Okay. I will tell you that my feelings are 
somewhat ambivalent, as I go through the material, and 
ambivalent because if they are legitimate conferences where 
legitimate training is taking place, I do understand that we 
have to account for the dollars and cents that are spent.
    But on the other hand, I understand that legitimate 
conferences don't always take place in my State or at a place 
that is convenient for me. So we sometimes find ourselves in 
places that ordinarily we might not travel to, but if it is for 
a legitimate reason, a legitimate conference with legitimate 
training, then--and it is something that is needed and related 
to the job, I am a little bit concerned that I don't create an 
atmosphere where persons won't be permitted to go to legitimate 
conferences for legitimate training that would be job-related.
    I have a concern. So that is my concern, as I listen to 
what is being said. There are some places that, because of the 
glamour and the lights and the--and the things that happen at 
night after training, that probably some people might think are 
just bad places to be.
    But on the other hand, if it is a legitimate conference for 
legitimate training and you legitimately are saving money by 
going there as opposed to some place else or you got a good 
deal for the taxpayer--and I am talking about a good deal--then 
I am reluctant to be critical if it is all legitimate and it is 
for the benefit of the taxpayers, ultimately, because someone 
has received some training.
    When we do this, I just want to be careful. I will speak 
for myself. I want to be careful not to overreact. I think that 
there is a genuine reason to react here, no question about it, 
legitimate reasons for reaction because of the disparity 
because the numbers that were submitted to Congress and the 
actual numbers that were dollars that were spent. I think those 
are legitimate reasons.
    On the other hand, I don't want us to get to a point where 
we don't get people to places where they can receive training 
that will benefit the taxpayers and they not go for fear that 
there will be some sort of reprisal, some sort of--it would 
become a part of some list and, as a result, it will in some 
way damage or tarnish your image by going.
    I am not standing up for anything that was wrong, anything 
wrong that was done. I am a person, however, who has seen 
enough in life to know that people sometimes will do things 
that are beneficial that other people don't always understand.
    So the reason I was giving you an opportunity to respond to 
these, because these kind of stand out, and I thought that an 
explanation of what was actually going on would be beneficial 
to those employees who may be under some sort of scrutiny 
because of the actual conference that was attended.
    If you would look into those that I have called to your 
attention, all on this page? Would you kindly respond to me in 
writing on these, since you were--I know that you were caught 
off-guard. You weren't expecting this specific list, and that 
is understandable. I don't want you to be demeaned in any way, 
because you didn't have this specific list.
    So now that you have it, would you kindly respond in 
writing? That way I will be able to give explanations as 
needed.
    I want to commit this to you: If it is legitimate, and it 
is to benefit the taxpayers, and the employee was there, and 
other things aside that have to be corrected, I will work with 
you on these things that are legitimate. Thank you very much.
    Ms. Duke. Thank you.
    Mr. Carney. Thank you, Mr. Green.
    I do want to echo what Mr. Green was saying. I think it is 
important that we be able to track and account for what is 
spent. No one, as I said before, wants to see conferences end. 
There is value in them. There is value in travel. There is 
value to going to Las Vegas, actually, and looking at the 
Predators and the programs out there, as long as it is 
legitimate. You know, that is not an issue.
    We don't want to get ourselves in a position where people 
are looked at with jaundiced eye because of doing this. If we 
can't account for it, you can justify the jaundiced eye.
    I certainly hope that the person who said we don't have 
accountability in this because we have unlimited spending has 
been educated otherwise now and is doing business differently.
    The truth is, every one of us behind this podium and at 
your seats, you know, are responsible for the taxpayers' 
dollars. I think it is fair to say that, for the first 7 years 
of DHS's existence, that responsibility among some wasn't taken 
very lightly--was taken very lightly, wasn't taken very 
seriously.
    We are going to change that. This subcommittee, this 
committee, you and I are going to change that. You know, the 
taxpayers need to know that--especially in times like this--
that the monies that they are spending to keep this Government 
running are being spent well and wisely and to keep us safe.
    I appreciate you both coming here. I imagine there is going 
to be lots of other questions that have been generated by this 
line of questioning and your answers. I would--if so, I would 
certainly appreciate written responses in a very timely 
fashion.
    Thank you both for coming. I appreciate it. The 
subcommittee stands adjourned.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
